No.

IN THE

Supreme Court of the United States

 

CoMCcasT CORPORATION, COMCAST CABLE COMMUNICATIONS, LLC,

Petitioners,
Vv.

CHARLES TILLAGE, JOSEPH LOOMIS,

Respondents.

 

CERTIFICATE OF COMPLIANCE

 

Thereby certify that I am a member in good standing of the bar of this Court and
that the Petition for a Writ of Certiorari contains 8,970 words and complies with the
word limitation established by Rule 33.1(g)(i) of the Rules of this Court.

Dated: February 27, 2020

    

Joshua M. Wesneski
